OFFICE OF THE INSPECTOR GENERAL

      REPORT TO CONGRESS

    April 1, 2002 – September 30, 2002
Inspector General’s Semiannual Report       National Credit Union Administration




                              THE NCUA MISSION

 OUR CHARGE IS TO FOSTER THE SAFETY AND SOUNDNESS OF FEDERALLY
  INSURED CREDIT UNIONS AND TO BETTER ENABLE THE CREDIT UNION
   COMMUNITY TO EXTEND CREDIT FOR PRODUCTIVE AND PROVIDENT
PURPOSES TO ALL AMERICANS, PARTICULARLY THOSE OF MODEST MEANS.

 WE STRIVE TO ENSURE THAT CREDIT UNIONS ARE ENPOWERED TO MAKE
 THE NECESSARY BUSINESS DECISIONS TO SERVE THE DIVERSE NEEDS OF
THEIR MEMBERS AND POTENTIAL MEMBERS. WE DO THIS BY ESTABLISHING
    A REGULATORY ENVIRONMENT THAT ENCOURAGES INNOVATION,
FLEXIBILITY, AND CONTINUED FOCUS ON ATTRACTING NEW MEMBERS AND
              IMPROVING SERVICE TO EXISTING MEMBERS.



            THE OFFICE OF INSPECTOR GENERAL MISSION

         TO PROMOTE ECONOMY, EFFICIENCY, AND EFFECTIVENESS
                 IN NCUA PROGRAMS AND OPERATIONS,
       AS WELL AS PREVENT AND DETECT FRAUD, WASTE, AND ABUSE.




                                        i
Inspector General’s Semiannual Report               National Credit Union Administration



                     INDEX OF REPORTING REQUIREMENTS

                    OFFICE OF THE INSPECTOR GENERAL
                  NATIONAL CREDIT UNION ADMINISTRATION


 SECTION                       DATA REQUIRED                       RESPONSE      PAGE REF
  4(a)(2)    Review of Legislation and Regulations                                  17
  5(a)(1)    Significant Problems, Abuses, or Deficiencies                           9
             relating to the administration of programs and
             operations disclosed during the reporting period.
  5(a)(3)    Recommendations with Respect to Significant                              9
             Problems, Abuses, or Deficiencies.
             Significant Recommendations Described in Previous
  5(a)(3)    Semiannual Reports on Which Corrective Action Has        13
             Not Been Completed.
  5(a)(4)    Summary of Matters Referred to Prosecution
             Authorities and Prosecutions, Which Have Resulted.      None
             Summary of Each Report to the Board Detailing
  5(a)(5)    Cases Where Access to All Records Was Not               None
             Provided or Where Information Was Refused.
  5(a)(6)    List of Audit Reports Issued During the Reporting                       20
             Period.
  5(a)(7)    Summary of Particularly Significant Reports.                             9
             Statistical Tables on Audit Reports With Questioned                     18
  5(a)(8)    Costs.
  5(a)(9)    Statistical Tables on Audit Reports With                                19
             Recommendations That Funds Be Put To Better Use.
  5(a)(10)   Summary of Each Audit Report Issued Before the          None
             Start of the Reporting Period for Which No
             Management Decision Has Been Made by the End of
             the Reporting Period.
  5(a)(11)   Description and Explanation of Reasons for any          None
             Significant Revised Management Decision Made
             During the Reporting Period.
  5(a)(12)   Information Concerning Significant Management           None
             Decisions With Which the Inspector General is in
             Disagreement.




                                            ii
Inspector General’s Semiannual Report                    National Credit Union Administration


         INSPECTOR GENERAL'S MESSAGE TO THE CONGRESS

During this reporting period, the National Credit Union Administration (NCUA) Office of
Inspector General (OIG) completed its comprehensive review of employees’ use of government
contractor- issued travel and purchase cards. Our review was designed to determine whether
NCUA employees were using the travel and purchase cards properly and to review what internal
controls were in place regarding the agency’s charge card programs. The OIG issued two reports
on the travel and purchase card programs, respectively. Our findings indicated, among other
things, that the agency needed to enhance controls over its credit card program—in particular the
travel card program-- including increasing monitoring of and providing training to cardholders on
appropriate use of the cards. In accordance with our recommendations, the agency has already
instituted numerous changes to the travel card program.

As a consequence of the agency’s increased monitoring of employees’ use of the travel charge
cards, the Office of Investigations (OI) has responded to an increased stream of referrals
presenting individual cases of travel card abuse. From studying the extent of travel card abuse
and particular misuse patterns, the OIG devised a focused and pertinent training program on the
proper use of the cards, presented to all OIG staff members at consecutive weekly sessions at the
agency-wide Regional Conference from August 5-23, 2002.

In continuing its mandate to help promote systems security at the NCUA, the OIG independently
evaluated and issued a report on NCUA’s implementation of the Government Information
Securities Reform Act (GISRA) for the year ended September 30, 2002. Our evaluation
determined that NCUA is actively working towards compliance with GISRA, but needs to
complete risk assessments and security plans for all of NCUA’s mission critical systems.

This office also continued to focus its attention on the NCUA’s financial reporting as well as its
performance under the Government Performance and Results Act (GPRA).

AUDIT HIGHLIGHTS

As mentioned above, the Office of Audit (OA) completed its respective reviews of the agency’s
travel and purchase card programs during this period. The OA worked closely with the Office of
Investigations during these reviews, referring to investigators individual employee accounts that
revealed significant misuse. In addition, the OA completed a review of NCUA’s performance in
meeting and reporting on Strategic Goal I under GPRA, as well as completed an independent
evaluation of NCUA’s information security program as required by GISRA.

INVESTIGATIVE HIGHLIGHTS

During the reporting period, the OI opened six (6) new investigations and carried 16 cases over
from the last reporting period, of which 15 were closed. One case from the previous reporting
period remains open.




                                                 iii
Inspector General’s Semiannual Report                   National Credit Union Administration


The seven (7) open cases currently under investigation involve the following issues: (1) abuse of
government contractor- issued credit card (5 cases); (2) false claims (one case); and
(3) misconduct in carrying out official duties (one case).

The OI has worked closely with the Office of Human Resources to ensure that that office
understood the nature and extent of the prevailing misuse patterns that our investigations
revealed. This concerted effort contributed significantly to meeting the agency’s legal obligation
to ensure fairness and consistency in imposing disciplinary action on individual employees for
card abuse.

FUTURE PLANS

The OIG plans to continue to consult closely with senior management regarding the
implementation of the more detailed and clear guidelines for employee use of the travel charge
cards that the agency recently promulgated. Moreover, the OIG will continue to work with and
advise individual supervisors responsible for monitoring their respective employees’ use of the
cards. We also intend to continue developing training for all NCUA cardholders to ensure that
cardholders remain informed of their responsibilities and the disciplinary action that may be
taken for improper use of the cards.




                                                     William A. DeSarno
                                                     Acting Inspector General




                                                iv
Inspector General’s Semiannual Report                                        National Credit Union Administration


                                             TABLE OF CONTENTS


INDEX OF REPORTING                                                                                         inside
REQUIREMENTS.........................................................................................       front
                                                                                                           cover


INSPECTOR GENERAL'S MESSAGE TO CONGRESS............................                                          iii


NATIONAL CREDIT UNION ADMINISTRATION.................................                                        1


     NCUA Highlights...................................................................................      4


      Federally Insured Credit Union Highlights............................................                  6


      Legislative Highlights............................................................................     7


OFFICE OF THE INSPECTOR GENERAL...............................................                               8


AUDIT ACTIVITY......................................................................................         9


INVESTIGATIVE ACTIVITY....................................................................                  14


LEGISLATIVE AND REGULATORY REVIEWS....................................                                      17


TABLE I – REPORTS WITH QUESTIONED COSTS…………………...                                                           18


TABLE II – REPORTS WITH RECOMMENDATIONS                                                                     19
          THAT FUNDS BE PUT TO BETTER USE.............................


TABLE III – SUMMARY OF OIG ACTIVITY..........................................                               20
Inspector General’s Semiannual Report               National Credit Union Administration


         NATIONAL CREDIT UNION ADMINISTRATION


T
       he National Credit Union Administration (NCUA) was established as an
       independent, federal regulatory agency on March 10, 1970. The agency is
       responsible for chartering, examining, supervising, and insuring federal credit
       unions. It also insures state-chartered credit unions that have applied for insurance
and have met National Credit Union Share Insurance requirements. NCUA is funded
entirely by credit unions; it does not receive any tax dollars. As of June 30, 2002, the
NCUA was supervising and insuring 6,032 Federal credit unions and insuring 3,782
state-chartered credit unions, a total of 9,814 institutions. This represents a loss of 86
Federal and 84 state-chartered institutions since December 31, 2001, for a total loss of
170 credit unions nation-wide.

NCUA operates under the direction of a Board composed of three members. Board
members are appointed by the President and confirmed by the Senate. They serve six-
year terms. Terms are staggered, so that one term expires every two years. The Board is
responsible for the management of the National Credit Union Administration, the NCUA
Share Insurance Fund, the Central Liquidity Facility, and the Community Development
Revolving Loan Program.

The National Credit Union Administration executes its program through its central office
in Alexandria, Virginia and regional offices in Albany, New York; Alexandria, Virginia;
Atlanta, Georgia; Lisle, Illinois; Austin, Texas; and Concord, California. NCUA also
operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
refer to the NCUA organizational chart on page 3.

The NCUA Board adopted its 2002 budget on November 15, 2001. The final revised
2002 budget of $146,568,580 represents an increase of $6.4 million over the 2001
budget. The Full Time Equivalent (FTE) staffing authorization for 2002 is 995, a
reduction of 33 positions over the 2001 total of 1,028.



    160,000

    140,000

    120,000

    100,000

     80,000                                                     Budget
     60,000

     40,000

     20,000

         0
              1997   1998    1999    2000    2001    2002




                                             1
Inspector General’s Semiannual Report           National Credit Union Administration




             1060

             1040

             1020

             1000

              980                                                  FTEs
              960

              940

              920

              900
                    1997   1998   1999   2000    2001   2002




                                         2
Inspector General’s Semiannual Report       National Credit Union Administration


                   NCUA ORGANIZATION CHART




                                        3
Inspector General’s Semiannual Report             National Credit Union Administration



                             NCUA HIGHLIGHTS

NCUA CHAIRMAN DECLARES THAT EXTENDING CREDIT UNION
SERVICES TO LATINO AND HISPANIC COMMUNITIES IS A TOP NCUA
PRIORITY

NCUA Chairman Dennis Dollar told credit union leaders in San Diego, at the 2nd annual
Latino Credit Union Conference sponsored by the National Federation of Community
Development Credit Unions, that NCUA will endeavor to serve as an effective agent of
opportunity and access to credit union services for the 90 million people residing in
CDFI-designated underserved areas in America. Chairman Dollar challenged credit
union leaders to encourage chartering new credit unions in these communities and
challenged existing credit unions to adopt these communities as underserved areas.
Chairman Dollar further expressed his support for the President’s vision of access to
credit, access to affordable financial services, and access to the American dream of home
ownership for people of all walks of life.

NCUA JOINS OTHER FEDERAL REGULATORS IN ISSUING PATRIOT ACT
RULE PROPOSALS ON CUSTOMER IDENTIFICATION

The NCUA joined the Department of the Treasury and six other financial regulators in
issuing Patriot Act rule proposals on customer identification. The new rules would
require certain financial institutions to establish minimum procedures for identifying and
verifying the identity of customers seeking to open new financial accounts. The proposed
rules would also require determining whether the person appears on any list of known or
suspected terrorists or terrorist organizations.

NCUA CHAIRMAN CONTINUES “ACCESS ACROSS AMERICA” INITIATIVE

In September, Chairman Dollar held an Access Across America workshop in El Paso,
Texas. The group, representing credit unions, league and trade organizations, community
officials and congressional staff members, participated in the workshop, which was
designed to enhance credit union CEO’s and managers’ ability to expand financial
services to all financially underserved areas. At the El Paso workshop, Chairman Dollar
voiced support for extending credit union services to the 12 million people living in the
Colonias, the impove rished southwest U.S. –Mexico border area.

NCUA PROPOSES FOREIGN-BRANCHING PROCESS

At the September board meeting, the NCUA Board gave initial approval to a proposal
that sets out the guidelines for federally- insured credit unions to establish foreign
branches. Currently, only military credit unions are allowed to branch overseas.




                                            4
Inspector General’s Semiannual Report            National Credit Union Administration



NCUA MEETS WITH GAO TO PREPARE FOR REVIEW OF THE CREDIT
UNION SYSTEM

At the request of Senate Banking Committee Chairman Paul Sarbanes, the U.S. General
Accounting Office is conducting a review of the credit union system. The review will
focus on how credit unions are carrying out their missions and serving their members and
communities. NCUA has had an initial meeting with GAO as it begins its review.




                                           5
Inspector General’s Semiannual Report              National Credit Union Administration




FEDERALLY INSURED CREDIT UNION HIGHLIGHTS
       redit unions submit semiannual call reports (financial and operational data) to

C      NCUA. An NCUA staff assessment of the June 30, 2002, semi-annual call
       reports submitted by all federally insured credit unions found that virtually all key
       financial indicators were healthy.

KEY FINANCIAL INDICATORS REMAIN STRONG

Looking at the June 30, 2002 semi-annual statistics for major balance sheet items and key
ratios shows the following for the nation’s 9,814 federally insured credit unions: assets
grew 7.45 percent, up from $501.5 to $538.9 billion; loan to share ratio declined from
73.8 to 70.9 percent; equity grew 5.1 percent, up from $54.8 to $57.6 billion; net worth to
assets ratio decreased from 10.8 percent to 10.6 percent; delinquency ratio decreased
from .82 to .72 percent; and membership increased from 79.4 to 80.3 million people.

SAVINGS INCREASED IN FIRST SIX MONTHS OF 2002

Savings increased 7.7 percent, up from $437.1 to $470.7 billion; regular shares increased
12.9 percent, up from $149.4 to $168.7 billion; share certificates decreased 3.7 percent,
down from $118.2 to $113.8 billion; money market shares grew 15.3 percent, up from
$69.5 to $80.1 billion; and IRA/KEOGH accounts grew 3.7 percent, up from $39.6 to
$41.1 billion.

LOAN GROWTH ALSO INCREASED IN FIRST SIX MONTHS OF 2002

Lending grew 3.5 percent, up $322.4 to $333.6 billion. Several categories of lending saw
positive growth. Used auto loans grew 4.8 percent to $69.5 billion. The largest category
of loans, first mortgage real estate loans grew 7.5 percent to $95.8 billion. New auto
loans increased 1.3 percent to $61.0 billion.




                                            6
Inspector General’s Semiannual Report              National Credit Union Administration


                       LEGISLATIVE HIGHLIGHTS




NCUA DEVELOPING PROCEDURES FOR IDENTIFYING AND VERIFYING
MEMBERS

NCUA, along with its fellow financial regulators, issued a joint proposed rule by the U.S.
Department of Treasury requiring certain financial institutions, including credit unions, to
establish minimum procedures for identifying and verifying the identity of
customers/members seeking to open new financial accounts. The rule’s purpose is to
protect the U.S. financial system from money laundering and terrorist financing. The
proposed rule implements section 326 of the USA PATRIOT Act. A final rule must be
effective by October 25, 2002.

PREDATORY LENDING REMAINS ON BACKBURNER

Congress and legislators continue to study ways to discourage predatory lending, either
through new legislation or improved enforcement of existing laws and rules. Although a
myriad of legislation was introduced at the start of the 107th Congress, it appears that the
issue of predatory lending remains on the backburner as Congress wrapped up the second
session of the 107th Congress.

BANKRUPTCY REFORM LAW STILL STALLED

The effort to see bankruptcy reform become law remains stalled over the issue of
individuals who commit violent acts at abortion clinics. The current version of the
proposed reform bill would, inter alia, preserve voluntary reaffirmation authority for
credit union members. The White House has indicated that the President would sign a
bankruptcy bill once it clears both chambers of Congress.

CENTRAL LIQUIDITY FACILITY BORROWING CAP INCLUDED IN FISCAL
YEAR 2003 APPROPRIATIONS BILL

On July 25, 2002, the Senate Appropriations Subcommittee on VA, HUD and
Independent Agencies, chaired by Sen. Barbara Mikulski (D-MD), marked up and
approved its FY 2003 appropriations bill. The $1.5 billion borrowing cap for CLF was
included in the bill.




                                             7
Inspector General’s Semiannual Report           National Credit Union Administration



             OFFICE OF THE INSPECTOR GENERAL


T     he Office of the Inspector General was established at the NCUA in 1989 under the
      authority of the Inspector General Act of 1978, as amended in 1988. The staff
      consists of the Inspector General, a Deputy Inspector General, an Assistant
Inspector General for Investigations/Counsel, a Senior Special Agent, two Senior
Auditors, a Senior Information Technology Auditor and an Office Administrator.

The Inspector General reports to, and is under the general supervision of, the NCUA
Board. The Inspector General is responsible for:

1. Conducting, supervising, and coordinating audits and investigations of all NCUA
   programs and operations;

2. Reviewing policies and procedures to ensure efficient and economic operations as
   well as preventing and detecting fraud, waste, and abuse;

3. Reviewing existing and proposed legislation and regulations to evaluate their impact
   on the economic and efficient administration of agency programs; and

4. Keeping the NCUA Board and the Congress apprised of significant findings and
   recommendations.




                                          8
Inspector General’s Semiannual Report            National Credit Union Administration



                              AUDIT ACTIVITY

AUDIT REPORTS ISSUED


Results Act: Goal 1 Promote a System of Financially Sound Federally Insured
Credit Unions OIG-02-08 July 12, 2002

The Government Performance Results Act of 1993 (Results Act) seeks to improve the
effectiveness, efficiency, and accountability of federal programs. The Results Act
requires government agencies to develop strategic plans, annual performance plans, and
performance reports. The National Credit Union Administration (NCUA) performance
plan must also include objective, quantifiable, and measurable performance goals.

For the year 2001, NCUA budgeted 70 percent of staff positions (692) and dollars ($92
million) for the achievement of Goal 1 - “Promote a system of financially sound, well-
managed, federally insured credit unions able to withstand economic volatility.”
Because of the amount of resources devoted to Goal 1, we selected that goal for our
annual review.

NCUA identified three outcome goals for strategic Goal 1 for 2000, 2001, and 2002,
namely: (1) ensure federally insured credit unions are financially healthy; (2) ensure
credit union management is aware of and prepared to meet potential future financial
challenges; and (3) maintain the healthy performance of the National Credit Union Share
Insurance Fund (NCUSIF). The purpose of our review was to evaluate NCUA's
performance in meeting and reporting on Strategic Goal 1 for 2000 and 2001. Our
review emphasis was verification and validation of goal performance information
reported to the NCUA Board and out side the agency.

Overall, we concluded that planning, operating plans, and progress in achieving Goal 1
were appropriate. We concluded that the call report system, and the methods used by the
agency in verifying and validating the call report information for the identified goals,
were appropriate. Our report provided four recommendations for improving goal
planning and the call report process in the future.

Purchase Card Review
OIG-02-09 August 14, 2002

Recent reports by government auditing agencies have raised serious concerns over the
adequacy of internal controls over the use of government credit cards. Reports of
fraudulent and unauthorized expenditures have exposed a widespread pattern of abuse
involving government contractor- issued travel and purchase cards. As a result, the
National Credit Union Administration (NCUA) Office of Inspector General (OIG)



                                           9
Inspector General’s Semiannual Report             National Credit Union Administration


performed a review of NCUA’s SmartPay Visa purchase card program. The objective of
this review was to determine if there is any abuse of the NCUA purchase cards.

NCUA has 32 open purchase card accounts. All six regional offices and several central
offices have at least one purchase card. We reviewed purchase card transaction activity
for 31 purchase cards (the OIG purchase card was excluded from this review) for the
period from June 2000 through November 2001.

A judgmental sample of 122 transactions for 26 purchase cards was selected for review.
We did not identify any abusive purchases using the NCUA Visa purchase cards.
However, we did identify several weaknesses in purchase card internal controls and
management.

Specifically, we found that purchase card policies and procedures are not comprehensive.
We found that purchase card policies and procedures are derived from various sources,
including verbal (non-documented) guidance, memoranda, NCUA Instructions, and ad
hoc cardholder office forms. While there are some basic internal controls in place, we
observed that actual controls varied from office to office, and in most offices there were
instances of non-compliance with those controls.

The report resulting from this review offers ten recommendations to improve controls
over the purchase card program.


Travel Card Review
OIG-02-10 September 16, 2002

Concurrent with our review of purchase cards (see above), the OIG performed a review
of NCUA’s SmartPay Visa travel card program. The objective of this review was to
determine if, and to what extent, NCUA employees are misusing NCUA travel credit
cards.

At the time of our review, NCUA had issued 957 individually billed government travel
cards to pay expenses of NCUA personnel during official travel. We reviewed the
activity on 158 individually billed travel card accounts for the period January 2000
through November 2001. We identified charges where the type of vendor and/or location
of the vendor seemed to indicate that the charges were not for official government travel.

Our review identified 69 of 158 individually billed travel cards as having possibly been
misused. Of the 69 travel cards with possible misuse charges, 37 had three or less
suspect charges (possible misuse/inappropriate use) and 23 had suspect charges of $100
or less. However, 15 cards (9.5%) had eleven or more suspect charges and 22 cards
(14%) had charges in excess of $500. We further noted that past due accounts accounted
for most of the suspect charges. NCUA had 34 past due accounts at the time of our
review and they accounted for 60% of the number of suspect charges in our sample and
47% of the dollar value of the suspect charges.



                                           10
Inspector General’s Semiannual Report             National Credit Union Administration



The most frequent misuse charges to the NCUA travel card were for grocery stores,
restaurants in the employee’s duty station, and various retail establishments. We also
noted that some employees used their travel card for office supplies, professional
publications and representation expenses. While recognizing that these represent official
business expenses, NCUA’s travel charge card policy in effect at the time of our review
was unclear as to what circumstances, if any, would warrant an employee using the
NCUA travel card for these expenses.

The report resulting from this review makes nine recommendations to improve the
NCUA travel card program.

Independent Evaluation of NCUA’s Information Security Program Required By
Governme nt Information Security Reform Act 2002
OIG-02-11 September 30, 2002

The Government Information Security Reform Act (GISRA) requires each Federal
agency to develop, implement, and review a comprehensive agency-wide security
program. The Act pertains to all systems supporting all operations of the agency
including those systems currently in place or planned.

During 2002, the Office of Inspector General (OIG) contracted with Urbach Kahn &
Werlin, LLP SACteam™, Information Risk Management Services Group (UKW), to
evaluate the agency- wide plan, as well as each individual system security plan and risk
assessment in depth. In addition, implementation of prior security related audit
recommendations and the agency’s plans of action and milestones were evaluated.

The primary objective of this review was to assess whether controls required to be
established as provided by GISRA and prior promulgation (OMB A-130 Appendix III;
Computer Security Act of 1987; Clinger-Cohen Act of 1996; the Paperwork Reduction
Act of 1995, et al.) are in place and operating as designed.

The NCUA OIG determined that NCUA is actively working towards compliance with
GISRA. Risk assessments and security plans were completed for all but one of NCUA’s
mission critical systems. Specifically, a risk assessment and corresponding security plan
was not completed for the General Service Administration (GSA)’s Payroll, Accounting
and Reporting System (PAR). Subsequent to our review, NCUA contacted GSA and
performed a risk assessment and prepared a security plan for PAR. In addition, we noted
and detailed conditions of risk and made recommendations for improvement relevant to
each of the applications reviewed.

The OIG supports reporting NCUA’s GISRA compliance at Level 2. The majority of the
critical elements under review are rated at Level 2 (e.g., policies and procedures are in
draft format) or Level 3 (e.g., the relevant policies and procedures are approved and
implemented).




                                           11
Inspector General’s Semiannual Report             National Credit Union Administration




OIG Report to OMB on NCUA Compliance With Government Information
Security Reform Act 2002
OIG-02-12 September 16, 2002

The Government Information Security Reform Act (GISRA), Public Law 106-398,
requires Inspectors General (IG) to perform independent evaluations to:

    •   Assess compliance with GISRA and agency security policies and procedures;
        and
    •   Test effectiveness of information security control techniques for a subset of the
        agency’s information systems.

The NCUA OIG performed three reviews during the reporting cycle that tested
effectiveness of information security and internal controls:

    •   On March 7, 2002, the OIG issued a report containing an Evaluation of Project
        Risks Associated with an Upgrade to Comprehensive Human Resources
        Integrated System (CHRIS);

    •   On March 31, 2002, the OIG issued the Financial Statement Audit Report for the
        year ended December 31, 2001; and

    •   On September 16, 2002, the OIG issued a report containing an evaluation of
        NCUA’s compliance with the Government Information Security Reform Act.

The overall objective of this review was to perform an independent evaluation as required
by GISRA in order to assess compliance with GISRA and agency security policies and
procedures. To fulfill the objectives of the review, we performed a detailed review of
NCUA’s risk assessments, security plans, and other relevant documents where available.
In addition, we interviewed each of the designated systems business owners in order to
execute a compliance gap analysis for each of the major computer systems. The
procedures also included reviewing available documentation to determine:

•   The level of compliance for each of the critical elements under review;
•   Items requiring a corrective action plan; and
•   Accepted risks associated with each system.

The NCUA OIG determined that NCUA is actively working towards compliance with
GISRA. The report made specific recommendations to management that address
concerns identified during this review.




                                            12
Inspector General’s Semiannual Report            National Credit Union Administration



AUDITS IN PROGRESS

Review of Region II Member Complaint Process

We are in the process of completing a review of NCUA Region II’s Member Complaint
Process. Our review objectives are to determine and evaluate the current process for
resolution of credit union member complaints submitted to NCUA’s Region II, and to
determine the effectiveness of the Region II member complaint process.


SIGNIFICANT AUDIT RECOMMENDATIONS ON WHICH CORRECTIVE
ACTION HAS NOT BEEN COMPLETED

As of September 30, 2002, there were no significant audit recommendations on reports
issued over six months ago that have not been either fully implemented or in the process
of implementation.




                                          13
Inspector General’s Semiannual Report            National Credit Union Administration




                       INVESTIGATIVE ACTIVITY
      n accordance with professional standards and guidelines established by

 I    the Department of Justice, the Office of Investigations performs
      investigations of criminal, civil, and administrative wrongdoing
      involving agency programs. Our investigative jurisdiction focuses on
activities designed to promote economy, effectiveness, and efficiency, as well
as fighting fraud, waste, and abuse in agency programs. In addition to our
proactive efforts to deter misconduct and promote integrity awareness among agency
employees, we investigate referrals and direct reports of employee misconduct.
Investigations may involve possible violations of regulations regarding employee
responsibilities and conduct, Federal criminal law, and other statutes and regulations
pertaining to the activities of NCUA employees. Investigative findings may lead to
criminal prosecution, civil prosecution, or administrative action.

Moreover, we receive complaints from credit union members and officials that involve
NCUA employee program responsibilities. These complaints are examined to determine
whether there is any allegation of NCUA employee misconduct. If not, the complaint is
referred to the appropriate regional office for response, or closed if contact with the
regional office indicates that the complaint has already been appropriately handled.


                     Investigative Operations


                        Contacts/inquiries/investigations carried         16
                          forward from previous reporting period

                        Contacts initiated during reporting period        6

                        Contacts closed for lack of verifiable evidence   0
                          or referred to another office

                        Reports issued and/or matters closed              15

                        Management Implication Reports issued             0

                        Matters Remaining Open                            7




                                          14
Inspector General’s Semiannual Report             National Credit Union Administration


OFFICE OF INVESTIGATIONS ACTIVITIES


CLOSED INVESTIGATIONS

Misuse of Travel Card (I-RVI-01-05; I-CO-01-09; I-CO-01-10; I-CO-02-02;
I-CO-02-03; I-CO-02-04; I-CO-02-05; I-CO-02-07; I-CO-02-08; I-CO-02-09;
I-RII-02-10; I-CO-02-11; I-I-CO-02-12; and CO-RIV-13)

Based on separate referrals as well as its own proactive reviews, the OI investigated and
closed fourteen (14) cases involving questionable charges appearing on NCUA
employees’ government travel charge card reports. Seven (7) of these cases revealed
charges for business-related expenses that the agency had not theretofore clearly
identified to employees as non-allowable. Based on the OIG’s comprehensive review
report on this matter as well as the individual reports of investigation issued, NCUA has
since redrafted its agency-wide guidance on these types of expenses to provide greater
clarification.

Investigation revealed further that two (2) employees were found to have misused the
card for personal expenses. The agency is currently deliberating appropriate disciplinary
action in both cases.

In another case, the investigation determined conclusively that an employee had
repeatedly used the government charge card for personal purchases totaling
approximately $2,500. After the employee’s initial interview, investigation determined
that the employee had given false testimony. The false statement and the issues
surrounding it were presented to the United States Attorney’s office for prosecutorial
consideration. Prosecution was declined, and administrative Kalkines warnings were
authorized. The employee was re- interviewed and was administered Kalkines immunity.
The employee made additional false statements in violation of the Kalkines warnings.
The employee resigned subsequent to the issuance of the OIG report

Two (2) cases that presented questionable charges revealed, after interviews under oath
with the employees involved, respectively, that the expenses were in fact travel-related
and, therefore, appropriately charged to the card.

Finally, two (2) employees disclosed, respectively, during investigative interviews that
single instances of personal use of the card were attributable to inadvertently using the
government card rather than their personal card. In both instances, employees showed
investigators their personal charge cards evidencing the marked similarity between the
two that purportedly resulted in the inadvertent misuse. Both employees were counseled
regarding the need for vigilance in segregating personal and government charge cards.




                                           15
Inspector General’s Semiannual Report             National Credit Union Administration


Mismanagement/Abuse of Authority (I-RII-02-01)

The OI, after reviewing numerous complaints alleging mismanagement/abuse of
authority on the part of a manager, found allegations insufficient to warrant continuance
of investigation.

OPEN INVESTIGATIONS

During this reporting period, the OI carried over one case from the previous reporting
period, involving misuse of the government travel charge card. Moreover, the OI is
currently investigating four (4) additional cases of employee credit card misuse. In
addition, the OI has one (1) case open concerning allegations of false claims and one (1)
open case involving misconduct in carrying out official duties.




                                           16
   Inspector General’s Semiannual Report             National Credit Union Administration



             LEGISLATIVE AND REGULATORY REVIEWS

   Section 4(a) of the Inspector General Act requires the Inspector General to review
   existing and proposed legislation and regulations relating to the programs and operations
   of NCUA and to make recommendations concerning their impact. Moreover, we
   routinely review proposed agency instructions and other policy guidance, in order to
   make recommendations concerning economy and efficiency in the administration of
   NCUA programs and operations and the prevention and detection of fraud, waste and
   abuse.

   During the reporting period, the OIG reviewed 15 items, including proposed and final
   changes to legislation, regulations, and agency Interpretive Ruling and Policy Statements
   (IRPS).


           SUMMARY OF STATUTES AND REGULATIONS REVIEWED
Legislation
H.R. 5005           “The Homeland Security Act”
H.R. 4561           “Federal Agency Protection Privacy Act”
H.R. 3951           “Financial Services Regulatory Relief Act”
 Regulations/Rulings
                                            Title
IRPS 02-01          Final IRPS, “Supervisory Review Committee”
12 CFR 701          Final Rule, “Organization and Operations of FCU’s”
IRPS 02-3           Notice of Final IRPS, “Allowance for Loan and Lease Losses,
                    Methodologies and Documentation for Federally- Insured CU’s”
31 CFR 103          Proposed Rule, “Customer Identification Program” (pursuant to the USA
                    PATRIOT Act
31 CFR 103          Interim Rule, “FINCEN; Special Information Sharing Procedures to Deter
                    Money Laundering and Terrorist Activity”
12 CFR 702, 741, Notice of Proposed Rulemaking, “Prompt Corrective Action”
747
31 CFR 103          Interim Final Rule, “FINCEN: Anti-Money Laundering Programs for
                    Financial Institutions”
12 CFR 703, 704     Proposed Rule, “Investment and Deposit Activities; Corporate CU’s”
                    Letter to SEC re: “Notice of Application of CU for Exemptive Relief
                    under Sections 15 and 36 of the Exchange Act”
12 CFR 740          Notice and Request for Comment, “Accuracy of Advertising and Notice
                    of Insured Status”
12 CFR 701          Proposed Rule Regarding Benefits for Employees of FCU’s,
                    “Organization and Operations of FCU’s”
12 CFR 703, 742     Proposed Rule with Request for Comments, “Investment and Deposit
                    Activities and Regulatory Flexibility Program”


                                              17
     Inspector General’s Semiannual Report               National Credit Union Administration



                                             TABLE I

                         INSPECTOR GENERAL ISSUED REPORTS
                               WITH QUESTIONED COSTS

                                                       Number of    Questioned      Unsupported
                                                        Reports       Costs            Costs

A.    For which no management decision had
      been made by the start of the reporting             0             $0               $0
      period.

B.    Which were issued during the reporting
      period.                                             0             0                0

      Subtotals (A + B)                                   0             0                0

C.    For which management decision was
      made during the reporting period.                   0             0                0

      (i) Dollar value of disallowed costs                0             0                0

      (ii) Dollar value of costs not disallowed           0             0                0

D.    For which no management decision has
      been made by the end of the reporting               0             0                0
      period.

E.    Reports for which no management
      decision was made within six months of              0             0                0
      issuance.


     Questioned costs are those costs the OIG has questioned because of alleged violations of
     laws, regulations, contracts, or other agreements; findings which at the time of the audit
     are not supported by adequate documentation; or the expenditure for the intended purpose
     is unnecessary or unreasonable.

     Unsupported costs (included in "Questioned Costs") are those costs the OIG has
     questioned because of the lack of adequate documentation at the time of the audit.




                                                  18
Inspector General’s Semiannual Report            National Credit Union Administration



                                      TABLE II

               INSPECTOR GENERAL ISSUED REPORTS
      WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

                                                           Number of          Dollar
                                                            Reports           Value

 A.    For which no management decision had been
       made by the start of the reporting period.               0               $0

 B.    Which were issued during the reporting period.           0               0

       Subtotals (A + B)                                        0               0

 C.    For which management decision was made
       during the reporting period.                             0               0

       (i) Dollar value of recommendations agreed to
       by management.                                          N/A              0

       (ii) Dollar value of recommendations not
       agreed to by management.                                N/A              0

 D.    For which no management decision was made
       by the end of the reporting period.                      0               0

 E.    For which no management decision was made
       within six months of issuance.                           0               0


Recommendations that "Funds to be Put to Better Use" are those OIG recommendations
that funds could be used more efficiently if management took actions to reduce outlays,
de-obligate funds from programs/operations, avoid unnecessary expenditures noted in
pre-award reviews of contracts, or any other specifically identified savings.




                                          19
 Inspector General’s Semiannual Report        National Credit Union Administration



                                   TABLE III

                       SUMMARY OF OIG ACTIVITY
                APRIL 1, 2002 THROUGH SEPTEM BER 30, 2002

PART I – AUDIT REPORTS ISSUED
Report                                                                    Date
Number          Title                                                     Issued
OIG-02-08       Results Act: Goal 1 Promote a System of Financially       7/12/02
                Sound Federally Insured Credit Unions
OIG-02-09       Purchase Card Review                                      8/14/02
OIG-02-10       Travel Card Review                                        9/16/02
OIG-02-11       Independent Evaluation of NCUA’s Information Security     9/30/02
                Program Required by the Government Information Security
                Reform Act
OIG-02-12       OIG Report to OMB on NCUA Compliance With                 9/16/02
                Government Information Security Reform Act 2002
PART II – AUDITS IN PROCESS (as of September 30, 2002)
                Review of NCUA Region II Member Complaint Process




                                         20
Inspector General’s Semiannual Report        National Credit Union Administration




                       WE WANT TO HEAR FROM YOU



                 CALL THE OIG HOTLINE




                      TOLL FREE 1-800-778-4806

                      WASHINGTON METRO AREA
                          703-518-6357
       You may call ANONYMOUSLY, or request that YOUR call be kept
                          CONFIDENTIAL




                                        21
